Office of Inspector General


September 23, 2011

MEMORANDUM

TO:     	        USAID/Haiti Mission Director, Carleene Dei

FROM: 	          Acting Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	        Review of the Pan American Development Foundation’s Management Controls
                 (Report Number 1-521-11-002-S)

This memorandum transmits our final report on the subject review. In finalizing the report, we
carefully considered your comments on the draft and have included the comments in their
entirety in appendix II.

The report includes 14 recommendations. On the basis of actions and timelines proposed by
the mission, we determined that management decisions have been reached on all
recommendations. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer with the necessary documentation to achieve final
action.

I appreciate the cooperation and courtesy extended to my staff during the review.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. 503-2501-2999 • Fax 503-2228-5459
www.usaid.gov/oig
SUMMARY 

The Pan American Development Foundation (PADF) is a private, nonprofit, nongovernmental
organization that works exclusively in Latin America and the Caribbean, with field offices mainly
in Haiti. In recent years, PADF has received USAID grants for numerous programs in Haiti,
including programs to reduce trafficking in persons, protect human rights, and provide
emergency shelter rehabilitation.

The objective of the review, initiated at the request of USAID/Haiti, was to determine whether
PADF/Haiti’s financial management controls provide reasonable assurance that PADF/Haiti is
reporting reliable financial information for its USAID-funded awards. This review covered
management controls over multiple programs that PADF was implementing during fiscal years
(FYs) 2007 through 2010, and included the following programs:

	 The Solid Waste Removal Program. For this $7.2 million cooperative agreement, started in
   May 2005 and ended in June 2007, PADF disbursed $7.2 million.

	 The Trafficking in Persons Program. For this $2.5 million cooperative agreement, started in
   May 2005 and ended in March 2007, PADF disbursed $1.6 million.

	 The Protection of Human Rights Program. For this $7.3 million cooperative agreement,
   started in May 2007 and ended in January 2011, PADF disbursed $7.3 million.

	 The Emergency Shelter Rehabilitation Program. This $11.8 million grant agreement started
   in April 2010 and was expected to end in September 2011. As of the audit, PADF had
   disbursed $8.3 million for the program.

The review identified 11 weaknesses in management controls, of which 3 are considered
material weaknesses, that PADF needs to address to comply with the Code of Federal
Regulations (CFR) and generally accepted accounting principles. Given the nature of the
material and significant weaknesses identified, USAID/Haiti should require PADF to make
significant financial management improvements to ensure that PADF remains eligible to receive
advance payments.

Material Weaknesses. A material weakness is a significant deficiency in internal control or a
combination thereof that results in more than a remote likelihood that a material misstatement of
the financial statements will not be prevented or detected. The review identified the following
material weaknesses in PADF’s internal controls:

	 22 CFR 226.53(b) requires the recipients of USAID awards to retain for 3 years all records
   pertinent to an award. PADF/Haiti did not have supporting documentation for expenditures
   totaling $25,332 for the Trafficking in Persons Program and $866,706 for the Solid Waste
   Removal Program for FY 2007. This weakness has a material impact on the financial
   statements (page 6).

	 According to 22 CFR 226.21(b)(7), recipients’ financial management systems shall provide
   accounting records that are supported by source documentation. For the Solid Waste
   Removal Program, financial data for FY 2007 became corrupted, and the data backups



                                                                                               2
   were not functional and could not be installed. This weakness has a material impact on the
   financial statements (page 7).

	 On a monthly basis, PADF/Washington reconciled the total costs recorded in its general
   ledger with those in the PADF/Haiti general ledger. However, reconciliations were not done
   at the account level. Furthermore, for the Emergency Shelter Rehabilitation Program,
   PADF/Washington did not reconcile the financial data from April through June 2010. This
   weakness has a material impact on the financial statements (page 7).

Significant Deficiencies. A significant deficiency is a deficiency in internal control or a
combination thereof that is less severe than a material weakness but is important enough to
merit attention by those charged with governance. The review identified the following significant
weaknesses in PADF’s internal controls:

	 PADF/Haiti did not always make timely payments to vendors and employees. For example,
   PADF/Haiti did not make timely payments to two vendors under the Protection of Human
   Rights Program, and four employees waited up to 3 months to receive their final payment
   from PADF/Haiti (page 8).

	 For the Protection of Human Rights Program, the subawardee selection process required
   proposals detailing the needed services or activities, eligible activities, criteria for selection,
   and application guidelines. Four of the nine subawards selected lacked supporting
   documentation showing that PADF/Haiti had conducted preaward surveys.                       Where
   preaward surveys were utilized, the surveys were not complete (page 9).

	 PADF/Haiti relies on physical counts of assets to safeguard assets. However, PADF/Haiti
   did not complete a physical count of assets for the Protection of Human Rights Program
   during FY 2008. In addition, PADF/Haiti did not maintain the original documentation
   supporting the physical counts for FY 2009 (page 9).

	 PADF/Haiti’s policies and procedures were incomplete. They did not address the use of
   contracts, budget review and approval, segregation of duties, or requirements related to
   advances of funds. As a result, PADF/Haiti’s policies and procedures did not provide
   reasonable assurance that operational and financial information was relevant and reliable in
   accordance with regulations (page 10).

	 As a best practice, organizations should require that vendors be paid directly in order to
   safeguard assets. However, the review found instances when PADF/Haiti paid an employee
   or a third party rather than paying the vendor directly (page 11).

	 PADF’s/Haiti agreement for the Protection of Human Rights Program required USAID/Haiti’s
   written approval for certain costs. However, housing costs related to security were not
   approved by the awarding agencies, and PADF/Haiti staff also traveled to the Dominican
   Republic without obtaining approval in accordance with the agreement (page 12).

	 According to Office of Management and Budget Circular A–122 (OMB A–122), Attachment
   A (A.4.a), a cost is allocable to a particular cost objective in accordance with the relative
   benefits received. However, the review found that in several cases, the cost allocations
   were not calculated according to the reasonable proportion of benefits received (page 13).




                                                                                                    3
	 According to OMB A–122, Attachment A (A.1), the total cost of an award is the sum of the
   allowable direct and allocable indirect costs less any applicable credits. The review
   disclosed that PADF/Haiti did not properly credit the Protection of Human Rights Program
   for repayments of rent and education allowances by one of its officers (page 14).

To help USAID/Haiti ensure that PADF/Haiti complies with CFR and the agreement, this report
recommends that USAID/Haiti—

1. Require
    	      PADF/Washington to establish proper controls               to   maintain   supporting
   documentation to prevent total loss of information (page 6).

2. 	 Require PADF/Haiti to take appropriate action to safeguard all financial data by ensuring
     that (1) detailed accounting data are backed up, (2) backups are functional, (3) backups are
     stored in a safe location, and (4) data are properly safeguarded during system upgrades
     (page 7).

3. 	Require PADF/Washington to maintain proper accounting controls by enforcing detailed
    reconciliations of financial data on a monthly basis (page 7).

4. 	Confirm that PADF/Haiti implements appropriate controls enforcing timely tracking and
    settling of advances to employees (page 8).

5. 	Confirm that PADF/Haiti implements appropriate controls requiring timely payments to
    vendors and employees and compliance with contractual requirements (page 8).

6. 	 Require PADF/Haiti to strengthen its controls over the award process, requiring consistent
     use of preaward survey documentation with all relevant information in compliance with the
     award document (page 9).

7. 	 Require PADF/Haiti to develop and implement policies and procedures for completing and
     documenting annual physical counts of assets, including use of standard templates when
     conducting physical counts (page 10).

8. 	 Require PADF/Haiti to complete updates of its policies and procedures and establish proper
     management controls to ensure continued timely review and updates (page 11).

9. 	 Require PADF/Haiti to enforce its policies and procedures requiring direct payment to all
     vendors (page 12).

10. Make a determination regarding the unallowable questioned costs totaling $1,250 for rental
    of space and chairs, and recover from the recipient the amounts determined to be
    unallowable (page 12).

11. Require that PADF/Haiti comply with all agreement clauses and make a determination
    regarding the $2,731 in unsupported questioned costs for housing payments and $1,078 for
    foreign travel payments (page 13).

12. Require that PADF/Haiti enforce appropriate controls to review all calculations for accurate
    and reasonable allocations in accordance with OMB Circular A–122 (page 13).




                                                                                               4
13. Make a determination regarding unallowable questioned costs—related to the rental
    expenses for the Cap Haitien office totaling $26,553, security expenses for the Cap Haitien
    office totaling $10,924, consulting expenses totaling $350, and expenses for garage
    utilization totaling $608—and recover from the recipient the amounts determined to be
    unallowable (page 13).

14. Make a determination regarding $17,775 in questioned costs related to the $10,350 credit
    for rent allowance and the $7,425 credit for education allowance recovered from an
    employee, and recover from the recipient the amounts determined to be unallowable
    (page 13).

Detailed review results follow. Our evaluation of management comments begins on page 15.
Appendix I contains the review’s scope and methodology; Appendix II contains the full text of
management comments.




                                                                                             5
REVIEW RESULTS 

PADF/Haiti Lacked Proper
Controls to Protect Supporting
Documentation
According to 22 CFR 226.53(b), recipients of USAID awards should retain financial records,
supporting documents, statistical records, and all other records pertinent to an award for 3
years. Furthermore, 22 CFR 226.53(b).4(e) states that USAID, the Inspector General, the
Comptroller General of the United States, or any of their duly authorized representatives have
the right of timely and unrestricted access to any books, documents, papers, or other records of
recipients that are pertinent to the awards.

PADF/Haiti officials stated that in 2008 a flood destroyed many of its accounting records. As a
result, for FY 2007, PADF/Haiti did not have supporting documentation for expenditures totaling
$25,332 for the Trafficking in Persons Program and $866,706 for the Solid Waste Removal
(SWR) Program. According to PADF/Haiti officials, they were not aware of this issue until
March 2011. PADF/Haiti officials stated that they did not notify USAID/Haiti about the loss until
this review began in March 2011, and it is not clear whether financial auditors learned about the
missing documentation during audits performed after FY 2007. Furthermore, the A–133 audit
report for FY 2007 did not mention lost documentation, nor did that audit include a scope
limitation because of the lack of documentation.

A lack of policies on the part of PADF/Washington to require duplication and protection of
supporting records, such as scanning of documentation to create electronic records or having a
copy of the documentation retained at PADF/Washington, resulted in the loss of supporting
information for FY 2007. Without supporting documentation, there is no audit trail to make an
independent determination that PADF/Haiti used all funds in accordance with the terms of the
agreement. To address this concern, this review makes the following recommendation.

   Recommendation 1. We recommend that USAID/Haiti require PADF/Washington to
   establish proper controls to secure and maintain supporting documentation to prevent
   total loss of information.

PADF/Haiti Lacked Adequate
Controls to Protect Financial Data
According to 22 CFR 226.21(b)(7), recipients’ financial management systems shall provide
accounting records, including cost accounting records, that are supported by source
documentation. PADF/Washington officials explained that they had a policy requiring the
computer systems manager to maintain backups of the accounting system data. PADF/Haiti
followed the backup policy; however, not all of the backed-up data were functional.

During the review, PADF/Haiti was unable to provide detailed financial data for FY 2007 for the
SWR program. PADF/Haiti explained that the accounting data became corrupted, and the data
backups were not functional. According to PADF/Haiti, the data were corrupted when
PADF/Haiti upgraded its accounting system during 2008. Because PADF failed to design and
implement effective management controls to ensure that detailed financial data are properly


                                                                                               6
backed up, stored in a safe location, system backups are functional, and data are protected
during system upgrades, PADF/Haiti financial data for the costs reviewed were corrupted.

Without a functional accounting system, internal and external auditors cannot analyze detailed
expenditures and verify them against supporting documentation, thereby corroborating the
accuracy of accounting data. To address this concern, this review makes the following
recommendation.

   Recommendation 2. We recommend that USAID/Haiti require PADF/Haiti to take
   appropriate action to safeguard all financial data by ensuring that (1) detailed accounting
   data are backed up, (2) backups are stored in a safe location, (3) backups are functional,
   and (4) data are properly safeguarded during system upgrades.

PADF/Washington Did Not
Complete Timely and Detailed
Financial Data Reconciliations
According to OMB A–122, Attachment A (A.2.e), costs are allowable under an award if the costs
are determined in accordance with generally accepted accounting principles. Furthermore,
OMB A–133, Subpart C 300(b), indicates that the auditee has a responsibility to maintain
internal control that provides reasonable assurance that it is managing federal awards in
compliance with laws, regulations, and the provisions of contracts or grant agreements that
could have a material effect on each of its programs. Although the regulation does not state
what controls recipients should have to provide reasonable assurance, financial data
reconciliations are usually utilized to provide reasonable assurance that financial data are
reliable.

PADF/Haiti recorded detailed transactions pertaining to all programs in its accounting system.
Each month, PADF/Washington recorded total costs reported by PADF/Haiti and then
reconciled the total costs recorded in its general ledger with those in the PADF/Haiti general
ledger to ensure data accuracy. However, no reconciliations were conducted at the account
level.    Furthermore, for the Emergency Shelter Rehabilitation (ESR) Program,
PADF/Washington did not reconcile the financial data from April through June 2010.

According to PADF/Washington officials, PADF/Haiti is in the process of updating the
accounting system, and starting with FY 2011 it will reconcile the accounting data by account.
PADF/Haiti officials also explained that they had not processed reconciliations for the ESR
program from April through June 2010 because they were evaluating the accounting system
and considering switching accounting software.

Without detailed reconciliation of accounting records, it is not possible to determine whether
PADF is reporting expenditures in their proper categories. This may result in inaccurate
accounting at the account level, which may make any analysis of results pointless. To address
this concern, this review makes the following recommendation.

   Recommendation 3. We recommend that USAID/Haiti require PADF/Washington to
   maintain proper accounting controls by enforcing detailed reconciliations of financial data
   on a monthly basis.




                                                                                                 7
PADF/Haiti Did Not Always Make
Timely Payments
22 CFR 226.47 requires USAID recipients to maintain a system for contract administration to
ensure contractor conformance with the terms, conditions, and specifications of the contract and
to ensure adequate and timely follow-up of all purchases. Furthermore, 22 CFR 226.21
requires that recipients’ financial management systems provide for effective control over and
accountability for all funds, property, and other assets.

PADF/Haiti did not always make timely payments to vendors and employees. For example, as
part of the Protection of Human Rights (PHR) Program, PADF/Haiti should have made a
payment to the Centre d’Appui Familial in February 2010, with a final payment in April 2010.
However, PADF/Haiti did not remit the payment for February and instead remitted a combined
payment for February and April in May 2010. Similarly, PADF/Haiti paid a consultant supporting
the PHR program for work done January through September 2009 in October 2009, not monthly
as required. Additionally, four employees from PHR waited up to 3 months to receive their final
payment from PADF/Haiti.

According to PADF/Haiti management, some employees received their final pay late because
they were responsible for filing and settling any advance payments (e.g., travel advances)
before receiving their final pay. However, review of the accounting records did not indicate that
PADF/Haiti deducted advances from the final pay of the employees who received late
payments. Furthermore, PADF/Haiti should ensure that employees settle their travel advances
promptly after completing travel, rather than waiting to settle the advances when final pay for the
employees is processed. In addition, PADF/Haiti indicated that the late payments to the Centre
d’Appui Familial and the consultant mentioned in the previous paragraph were exceptions.

PADF/Haiti did not comply with contractual terms and laws, and regulations because it did not
have effective controls to track advances to employees and compliance with contractual
requirements in accordance with 22 CFR 226.47. This resulted in late payments to vendors and
employees. Timely payment to employees and vendors ensures compliance with laws and
regulations; failure to comply may result in a potential liability to PADF/Haiti. To address this
concern, this review makes the following recommendations.

   Recommendation 4. We recommend that USAID/Haiti confirm that PADF/Haiti
   implements appropriate controls enforcing timely tracking and settling of advances to
   employees.

   Recommendation 5. We recommend that USAID/Haiti confirm that PADF/Haiti
   implements appropriate controls requiring timely payments to vendors and employees
   and compliance with contractual requirements.

PADF/Haiti Did Not Always Use
Preaward Surveys Properly
According to USAID/Haiti’s award to PADF/Haiti for the PHR program, the subawardee
selection process required preaward surveys detailing the needed services or activities, eligible
activities, criteria for selection, and application guidelines.   Applications also required
descriptions of the proposed activities, beneficiaries, geographic scope, and budget; an
explanation of how the activity would support the program’s goals; and basic financial and


                                                                                                 8
organizational background information. Furthermore, grants and services greater than $5,000
required approval by a selection committee of four to six persons. In the event that only one
organization was available and capable of implementing the activities, sole-source selection
would be used and justification would be documented, noting other options explored.

The review noted that four out of nine subawards selected judgmentally lacked supporting
documentation showing that PADF/Haiti conducted preaward surveys. When PADF/Haiti
utilized preaward surveys, the surveys lacked the following information:

	 Criteria for the selection.

	 Application guidelines.

	 The preparation date of the survey.

	 Names and/or signatures of preparer and interviewer and/or the selection committee.

	 Evidence of review and acceptance (sign-offs by reviewers), including justification for why a
   particular awardee was chosen.

	 Proof that more than one potential candidate for the subaward was interviewed prior to
   accepting a proposal—or justification for sole-source selections.

PADF/Haiti maintained documentation on the subawardee selection process but lacked
procedures to ensure compliance with the agreement regarding preaward surveys as required
by the PHR award. In addition, PADF/Haiti did not use standard templates to document the
criteria for the selection, review, and approval process; approvals by the selection committee;
and so forth. As a result, PADF/Haiti may have selected more costly subawardees. To address
this concern, this review makes the following recommendation.

   Recommendation 6.         We recommend that USAID/Haiti require PADF/Haiti to
   strengthen its controls over the award process, requiring consistent use of preaward
   survey documentation with all relevant information in compliance with the award
   document.

PADF/Haiti Did Not Complete
Physical Counts of Assets
22 CFR 226.21(b)(3) requires recipients’ financial management systems to provide effective
control over and accountability for all funds, property, and other assets. Furthermore, recipients
should adequately safeguard all assets and use them solely for authorized purposes. Although
the regulation does not direct specific controls, physical counts of assets are recognized as
effective tools to ensure that assets are properly protected.

PADF/Haiti relies on physical counts of assets to safeguard assets. However, PADF/Haiti did
not complete a physical count of assets for the PHR program during FY 2008. In addition,
PADF/Haiti did not maintain the original documentation supporting the physical counts for
FY 2009. PADF/Haiti officials indicated that they kept only the updated asset registry after
conducting the physical counts.



                                                                                                9
These problems occurred because PADF/Haiti lacked detailed policies and procedures outlining
how to conduct and document the physical count of assets. Furthermore, PADF/Haiti did not
utilize standard documentation when performing the physical counts of assets. Without proper
documentation supporting the physical count of assets, it is not possible to determine who
conducted and reviewed the count, when the count was completed, or the original inventory on
hand and the results of the count. Lack of compliance with the requirements of 22 CFR 226
could result in assets becoming more vulnerable to theft and loss. To address this concern, this
review makes the following recommendation.

   Recommendation 7. We recommend that USAID/Haiti require PADF/Haiti to develop
   and implement policies and procedures for completing and documenting an annual
   physical count of assets, including use of standard templates when conducting physical
   counts.

PADF/Haiti’s Policies and
Procedures Were Incomplete
22 CFR 226.21(b)(6) requires that the recipient maintain written procedures for determining the
reasonableness, allocability, and allowability of costs in accordance with federal cost principles
and the terms and conditions of the award. Furthermore, OMB A–133, Subpart C 300(b),
indicates that the organization is responsible for maintaining internal control that provides
reasonable assurance that it is managing federal awards in compliance with laws, regulations,
and the provisions of contracts or grant agreements that could have a material effect on its
federal programs.

PADF/Haiti’s policies and procedures that address how to account for costs charged to USAID
programs in accordance with regulations were incomplete. They did not address the following
areas:

	 Guidelines outlining when the use of a contract is required (e.g., threshold amounts
   requiring the use of an agreement) and standard clauses required for an agreement.

	 The budget review and approval process.

	 The segregation of duties.

	 Requirements related to requesting advances of funds from the mission (e.g., required
   documentation, approvals, etc.).

PADF/Haiti policies and procedures were incomplete because its officials failed to review them
for revisions needed to provide reasonable assurance that operational and financial information
was relevant and reliable in accordance with regulations. PADF/Haiti officials indicated that
they were in the process of rewriting their policies and addressing many of these concerns.

As a result, PADF/Haiti’s policies and procedures did not provide reasonable assurance that
operational and financial information was relevant and reliable in accordance with regulations.
Furthermore, PADF/Haiti purchased high-value services without an agreement. Specifically, for
the PHR program, PADF purchased silk-screening services for $17,205 and $16,275 without
utilizing agreements. The lack of complete policies and procedures may result in unsupported



                                                                                               10
or questioned costs because expenditures may not comply with agreement terms. To address
this concern, this review makes the following recommendation.

   Recommendation 8. We recommend that USAID/Haiti require PADF/Haiti to complete
   updating its policies and procedures and establish proper management controls to
   ensure continued timely review and updates.

PADF/Haiti Made Payments to
Third Parties Rather Than Directly
to Vendors
As a best practice, organizations should require that vendors be paid directly to safeguard
assets. PADF/Haiti’s policies and procedures reflect this practice; for example, the PADF/Haiti
procedures manual dated January 2008 requires that payments to vendors be given to the
office manager, who is responsible for contacting the vendors to collect the check(s), or to a
messenger or driver who will carry the check(s) to the vendors. This practice is a safeguard to
ensure proper segregation of duties. Furthermore, according to OMB A–122, Attachment A
(A.2.g), costs must be adequately documented before they can be considered allowable under
an award. However, the review found that PADF/Haiti paid an employee or a third party rather
than paying the vendor directly in the following instances:

	 Contrary to general practice, PADF/Haiti made rental payments for the ESR program
   director’s house to the employee rather than to the vendor. Furthermore, the employee did
   not provide a copy of the canceled check as support for the reimbursement, and the
   signature on the receipt presented as backup did not match the signature of the vendor per
   the contract. The payments to the employee totaled $10,000.

	 During the PHR program, PADF/Haiti established a vendor agreement with the Ministry of
   Women (Ministère à la Condition Féminine et aux Droits des Femmes). However, instead of
   paying the organization, PADF/Haiti issued payment of approximately $14,000 to the
   ministry’s director.

	 During the PHR program, on August 17, 2010, PADF/Haiti paid an employee $1,250 for the
   rental of space and chairs for a meeting rather than paying the vendor directly.
   Furthermore, the review found that the documentation supporting the expenditure appeared
   invalid. The expenditure was supported by an invoice bearing the company name and a
   document supposedly prepared by the owner of the company indicating that he received
   payment for the expenditure. However, independent inquiries made to confirm receipt of the
   amount showed the phone number listed on the invoice was not for the person or company
   listed on the invoice. Also, the date on a list of meeting attendees included in the files was
   altered and did not agree with the actual event date, and the names of attendees appeared
   to have been written by the same person rather than by each individual attendee.

	 During the PHR program, PADF/Haiti paid $17,205 to an individual rather than to the
   company, Digi Plus, that provided silk-screening services. Although the amount was
   significant, PADF/Haiti did not have a contract with this vendor.

Although PADF/Haiti management stated its belief that each of these payments was justified, its
explanations failed to address the risk of misappropriation created by the lack of internal control.
In the instances cited, PADF/Haiti did not follow the requirements in its procedures manual. In


                                                                                                 11
each of these situations, PADF/Haiti could have issued checks in the vendor’s name, thereby
mitigating risk, or selected other vendors that were willing to conduct business in accordance with
PADF/Haiti’s payment policies.

Lack of enforcement of policies and procedures may result in the misappropriation of assets if
payments are made to a party that does not represent the vendor. To address this concern, this
review makes the following recommendations.

   Recommendation 9. We recommend that USAID/Haiti require PADF/Haiti to enforce
   its policies and procedures requiring direct payment to all vendors.

   Recommendation 10. We recommend that USAID/Haiti make a determination
   regarding the unallowable questioned cost for rental of space and chairs totaling $1,250
   and recover from the recipient the amounts determined to be unallowable.

PADF/Haiti Did Not Obtain
Approvals for All Expenditures
PADF/Haiti’s agreement for the PHR program required USAID/Haiti’s written approval for
certain costs. However, the review noted that PADF/Haiti incurred the following expenditures
without obtaining the proper approvals:

	 In accordance with OMB A–122, Attachment B (20.a), costs of housing are allowable as
   direct costs to the sponsored award when necessary for the performance of the sponsored
   award and approved by awarding agencies. However, the review noted that while
   PADF/Haiti obtained approval for housing costs totaling $2,500 per month for the PHR
   program director, the reported expenditures for housing totaled $3,222 per month for 3
   months in FY 2009, including $922 for security. PADF/Haiti provided no evidence of USAID
   approval for these additional costs, which resulted in total unsupported questioned costs of
   $2,731 for 3 months (adjusted for currency fluctuations).

	 Clause 18.a of the agreement states that, in accordance with OMB cost principles, direct
   charges for foreign travel are allowable only when each foreign trip has received prior
   budget approval. PADF/Haiti reported foreign travel to the Dominican Republic on
   March 26, 2009; however, it had not obtained approval in accordance with the agreement.
   This resulted in total unsupported questioned costs of $1,078.

PADF/Haiti did not seek approval for the security cost because it understood that it was
approved in the budget as a housing cost. For foreign travel, PADF/Haiti did not obtain
approval because it considered travel to the Dominican Republic to be domestic travel. Lack of
compliance with the agreement has resulted in added costs not intended by the agreement. To
address this concern, this review makes the following recommendation.

   Recommendation 11. We recommend that USAID/Haiti require that PADF/Haiti comply
   with all agreement clauses and make a determination regarding the $2,731 in unsupported
   questioned costs for housing payments and $1,078 for the foreign travel payments.




                                                                                                12
PADF/Haiti Did Not Properly
Allocate All Program Costs
According to OMB Circular A–122, Attachment A (A.4.a), a cost is allocable to a particular cost
objective, such as a grant or other activity, in accordance with the relative benefits received. A
cost is allocable to a federal award if it is treated consistently with other costs incurred for the
same purpose and if it is distributed in reasonable proportion to the benefits received.

While PADF allocated certain expenses across multiple programs, PADF did not always
calculate the cost allocations according to the reasonable proportion of benefits received:

	 PADF/Haiti charged the PHR program for office rental payments for an office located in Cap
   Haitien; however, PADF/Haiti maintained no evidence to indicate that the Cap Haitien office
   was utilized solely for the PHR program. For instance, PADF/Haiti’s rental agreement
   makes no reference to the PHR program. Furthermore, a USAID/Haiti official who visited
   the Cap Haitien office in 2007 attested that PADF/Haiti was operating more than one
   program from this location. Specifically, the USAID/Haiti official claimed that the office
   housed the PHR program, the Cap Haitian Prison Program funded by the Canadian
   Government, and the Office to Monitor and Combat Trafficking in Persons funded by the
   State Department. Therefore, it is unreasonable to allocate the entire rental cost to the PHR
   program.     The review estimated unallowable questioned costs totaling $26,553 by
   estimating that the office was shared by at least three programs.

	 In addition to the rental costs, PADF/Haiti charged the PHR program for security costs for
   the Cap Haitien office. Specifically, PADF/Haiti charged the PHR program approximately
   $1,200 per month for security costs; however, as previously discussed, PADF/Haiti did not
   use the Cap Haitien office exclusively for the PHR program, and therefore not all of the
   security costs are allowable. The review estimated unallowable questioned costs totaling
   $10,924 by estimating that the office was shared by at least three programs.

	 PADF/Haiti overcharged the ESR program for consulting services. The consultant worked
   73 days, and PADF/Haiti charged the program for 74 days, resulting in questioned costs of
   $350.

	 PADF/Haiti’s cost calculations for garage services charged to the PHR program in June and
   July 2007 contained errors. Specifically, PADF/Haiti allocated the costs for mechanic
   services to the PHR program, even though the costs were incurred prior to the effective date
   of the PHR program. Furthermore, PADF/Haiti did not allocate costs across all vehicles
   because it excluded broken vehicles stored in the garage from the allocation base. These
   discrepancies resulted in unallowable questioned costs totaling $608.

PADF/Haiti personnel incorrectly allocated costs because PADF/Haiti lacks proper controls to
ensure that such allocations are distributed reasonably proportionately to all applicable
programs in accordance with OMB guidance. Errors in calculating and allocating costs have
resulted in overpayment of expenditures to PADF/Haiti. To address this concern, this review
makes the following recommendations.

   Recommendation 12. We recommend that USAID/Haiti require that PADF/Haiti
   enforce appropriate controls to review all calculations for accurate and reasonable
   allocations in accordance with Office of Management and Budget Circular A–122.


                                                                                                 13
   Recommendation 13. We recommend that USAID/Haiti make a determination
   regarding the unallowable questioned costs—related to the rental expenses for the Cap
   Haitien office totaling $26,553, security expenses for the Cap Haitien office totaling
   $10,924, consulting expenses totaling $350, and expenses for garage utilization totaling
   $608–and recover from the recipients the amounts determined to be unallowable.

PADF/Haiti Did Not Credit USAID
for Refunds of Rent and Education
Allowances
According to OMB A–122, Attachment A (A.1), the total cost of an award is the sum of the
allowable direct and allocable indirect costs less any applicable credits. PADF/Haiti is required
to adhere to these cost principles, and therefore is responsible for ensuring that expenditures
charged to any program are reduced by any applicable credits.

The review identified an instance in which PADF/Haiti did not properly credit the PHR program.
PADF/Haiti charged the PHR program for rent paid on behalf of the program director for
December 12, 2007, through June 14, 2008; however, the individual left the program on
January 1, 2008, and was required to repay rent and education allowances upon his departure.
However, the PHR program did not record the credit for the amounts repaid, which totaled
$10,350 for rent allowance and $7,425 for education allowance.

According to PADF/Washington officials, the PHR program did not receive the appropriate credit
for the education and housing allowances repaid by the program director because
PADF/Washington processed the final payment and forgot to credit the PHR program in Haiti for
the adjustment in final pay. Failure to allocate applicable credits resulted in overpayment of
funds from the PHR program totaling $10,350 for rent allowance and $7,425 for education
allowance. To address this concern, this review makes the following recommendation.

   Recommendation 14. We recommend that USAID/Haiti make a determination
   regarding $17,775 in questioned costs related to the $10,350 credit for rent allowance
   and the $7,425 credit for the education allowance recovered from an employee and
   recover from the recipient the amounts determined to be unallowable.




                                                                                              14
EVALUATION OF MANAGEMENT
COMMENTS
In comments on the draft report, USAID/Haiti agreed with all 14 recommendations, 10 of which
required the establishment of procedures for more effective management and 4 of which
addressed questioned costs totaling $61,249. USAID/Haiti stated that the recommendations will
enable PADF to improve the overall management of future USAID-financed activities in Haiti.

The mission provided an action plan and time frames for the implementation of each
recommendation. (For details, see Appendix II.) Therefore, we concluded that management
decisions have been reached on all recommendations.




                                                                                          15
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this review in accordance with
generally accepted government auditing standards. This review is not an audit, but it complies
with the general standards in Chapter 3 as well as with the evidence and documentation
standards in Paragraph 7.55 and Paragraphs 7.77 through 7.84 of Government Auditing
Standards.* Those standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
in accordance with the review objective. The objective of this review was to determine whether
the financial management controls for the PADF/Haiti office provide reasonable assurance that
PADF/Haiti is reporting reliable financial information for its USAID-funded awards.

In planning and performing the review, we assessed PADF/Haiti’s controls related to its program
activities. The management controls tested included controls over advances of funds,
contractual compliance and subawards, bank accounts and cash management, accounting and
financial reporting, budgeting, payroll and human resources, fixed assets, cost sharing, indirect
costs, segregation of duties, and procurement.

The review covered the expenditures incurred for the Trafficking in Persons, Solid Waste
Removal, Protecting Human Rights, and Emergency Shelter Rehabilitation Programs from
October 1, 2007, to September 31, 2010. The Regional Inspector General conducted the
review in Port Au Prince, Haiti, from March 21 to April 14, 2011.

Methodology
To answer the review objective, we selected a judgmental sample from the above-mentioned
programs managed by PADF/Haiti and tested whether management controls were operating
effectively. We met officials from USAID/Haiti, including the technical officers responsible for
overseeing the programs’ activities and the program officers. We also met with officials from
PADF/Haiti and PADF/Washington. We reviewed award documents for the review period to
obtain an understanding of the programs’ requirements related to management controls,
reporting, and compliance with OMB A–122 and 22 CFR 226.




*
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                              16
                                                                                      Appendix II



MANAGEMENT COMMENTS 




TO:            Catherine Trujillo, RIG/San Salvador

FROM:          Carleene Dei, Mission Director

DATE:          August 18, 2011 /s/

SUBJECT:     Mission Response to the draft RIG Review Report of the Pan American
Development Foundation Management Controls (Report Number 1-521-11-00X-S)

This memorandum represents USAID/Haiti’s formal response to the draft RIG review report of
the Pan American Development Foundation Management Controls to determine whether the
Foundation is managing USAID-financed activities in Haiti efficiently and in accordance with
agreement requirements and the Foundation’s own policies and procedures (Report No. 1-521­
11-00X-S). USAID/Haiti appreciates the time and effort of the RIG staff in carrying-out this audit
and for the professional and cooperative manner in which the audit was conducted.

General Comments:

The auditors provided 14 recommendations, ten of which were actions that are directly related
to establishing key procedures for the effective management of the program and four of them
are questioned costs. USAID/Haiti fully agrees with the recommendations and we believe they
will enable PADF to improve the overall management of future USAID-financed activities in Haiti
with effective internal controls that provide reasonable assurance that it is complying with
applicable requirements. An action plan and time frame are developed below regarding the
implementation or closing of the recommendations.

Recommendation 1. We recommend that USAID/Haiti require PADF/Washington to establish
proper controls to secure and maintain supporting documentation to prevent total loss of
information.

Planned Action:

PADF/Washington has informed USAID/Haiti that they have begun the process of instituting a
system of scanning source documentation for permanent storage to be completed by
September 30, 2011. USAID Haiti will review the actions taken by PADF and make a final
determination within 30 days of the implementation of the updated policy and related
procedures.




                                                                                               17
                                                                                      Appendix II


Recommendation 2. We recommend that USAID/Haiti require PADF/Haiti to take
appropriate action to safeguard all financial data by ensuring that (1) detailed accounting data
are backed up, (2) backups are stored in a safe location, (3) backups are functional, and (4) data
are properly safeguarded when implementing system upgrades

Planned Action:

PADF/Washington maintains its financial data on an accounting system named Great Plains
(“GP”). PADF/Washington has informed USAID Haiti that they have contracted a consultancy
service to back up all PADF/ Financial (“GP”) data on a monthly basis for PADF/Washington
and all of their field offices, which includes PADF/Haiti. The contract for storing backup data is
effective immediately beginning with the period ending July 31, 2011. USAID/Haiti will review
the actions taken by PADF and make a final determination within 30 days of the implementation
of the updated policy and related procedures.

Recommendation 3. We recommend that USAID/Haiti require PADF/Washington to maintain
proper accounting controls by enforcing detailed reconciliations of financial data on a monthly
basis.

Planned Action:

PADF/Washington has informed USAID/Haiti that PADF/Haiti’s accounting information is now
loaded directly to PADF/Washington’s Great Plains (“GP”) accounting system on a monthly
basis from the field books to correct this problem. These accounting procedures and controls
were permanently implemented with the May 30, 2011 monthly closing. USAID/Haiti will review
the actions taken by PADF and make a final determination within 30 days of the implementation
of the updated policy and related procedures.

Recommendation 4. We recommend that USAID/Haiti confirm that PADF/Haiti implements
appropriate controls enforcing timely tracking and settling of advances to employees.

Planned Action:

PADF/Washington has informed USAID/Haiti that PADF/Haiti has instituted an advance ledger
to control all advances given to employees and sub-recipients. Each advance will be tracked
and controlled separately. These accounting procedures and controls will be permanently
implemented with the July 31, 2011 monthly closing. USAID/Haiti will review the actions taken
by PADF and make a final determination within 30 days of the implementation of the updated
policy and related procedures.

Recommendation 5. We recommend that USAID/Haiti confirm that PADF/Haiti implements
appropriate controls requiring timely payments to vendors and employees and compliance
with contractual requirements.

Planned Action:

PADF/Washington has informed USAID/Haiti that PADF/Haiti has instituted a “tickler file” and a
log of “aging of accounts payables” to ensure that payments are made on a timely basis. These
accounting procedures and controls are effective with the July 31, 2011 monthly closing.
USAID/Haiti will review the actions taken by PADF and make a final determination within 30
days of the implementation of the updated policy and related procedures.


                                                                                               18
                                                                                    Appendix II



Recommendation 6. We recommend that USAID/Haiti require PADF/Haiti to strengthen its
controls over the award process, requiring consistent use of pre-award survey
documentation with all relevant information in compliance with the award document.

Planned Action:

PADF/Washington has informed USAID/Haiti that in conjunction with PADF/Haiti they are
reviewing and updating PADF/Haiti’s grant policies and procedures, and the changes will be
incorporated in the Procedure Manual by September 30, 2011. USAID/Haiti will review the
actions taken by PADF and make a final determination within 30 days of implementation of the
updated policy and related procedures.

Recommendation 7. We recommend that USAID/Haiti require PADF/Haiti to develop and
implement policies and procedures for completing and documenting annual physical count of
assets, including use of standard templates when conducting physical counts.

Planned Action:

PADF/Washington has informed USAID/Haiti that PADF/Haiti will continue to conduct annual
inventories of all equipment items and document and reconcile its physical count with its
financial records. The next inventory will be performed prior to September 30, 2011 and every
year end thereafter. USAID/Haiti will review the actions taken by PADF and make a final
determination within 30 days of implementation of the updated policy and related procedures.

Recommendation 8. We recommend that USAID/Haiti require PADF/Haiti to complete
updating its policies and procedures and establish proper management controls to ensure
continued timely review and updates.

Planned Action:

PADF/Washington has informed USAID/Haiti that in conjunction with PADF/Haiti they already
have updated and revised its policies, and the updated manual is effective July 31, 2011.
Further updates and/or reviews will occur at least annually. USAID/Haiti will review the actions
taken by PADF and make a final determination within 30 days of the implementation of the
updated policy and related procedures.

Recommendation 9. We recommend that USAID/Haiti require PADF/Haiti to enforce its
policies and procedures requiring direct payment to all vendors.

Planned Action:

PADF/Washington has informed USAID/Haiti that all payments will be made directly in the name
of the vendor that appears on the contract, rather than a third party. These changes are
reflected in the updated PADF/Haiti’s Finance Manual effective July 31, 2011. USAID/Haiti will
review the actions taken by PADF and make a final determination within 30 days of
implementation of the updated policy and related procedures.

Recommendation 10. We recommend that USAID/Haiti make a determination regarding the
unallowable questioned cost for rental of space and chairs totaling $1,250 and recover from the
recipient the amounts determined to be unallowable.


                                                                                             19
                                                                                    Appendix II



Planned Action:

PADF/Washington has informed USAID/Haiti that it agrees that this questioned cost is
unallowable and the charge of $1,250 will be credited to USAID. USAID/Haiti will review the
actions taken by PADF and make a final determination within 30 days of the final repayment
action taken by PADF.

Recommendation 11. We recommend that USAID/Haiti require that PADF/Haiti comply with all
agreement clauses and make a determination regarding the $2,731 in unsupported questioned
costs for housing payments and $1,078 for the foreign travel payments.

Planned Action:

The Audit Resolution Committee (ARC) chaired by the Agreement Officer will review the
supporting documents related to the questioned costs, and will make a final determination within
30 days of the issuance of the ARC report.

Recommendation 12. We recommend that USAID/Haiti require that PADF/Haiti enforce
appropriate controls to review all calculations for accurate and reasonable allocations in
accordance with OMB A–122 § A. 4.a.

Planned Action:

PADF/Washington has informed USAID/Haiti that they will establish procedures and identify an
accountant in PADF/Haiti to review on a monthly basis the correctness of all cost allocation
calculations. USAID/Haiti will review the actions taken by PADF and make a final determination
within 30 days of the implementation of the updated policy and related procedures.

Recommendation 13. We recommend that USAID/Haiti make a determination regarding the
unallowable questioned cost related to the rental expenses for the Cap Haitien office totaling
$26,553, security expenses for the Cap Haitien office totaling $10,924, overcharged
consulting expenses totaling $350, and overcharged expenses for garage utilization totaling
$608; and recover from the recipients the amounts determined to be unallowable.

Planned Action:

The Audit Resolution Committee (ARC) chaired by the Agreement Officer will review the
supporting documents related to the questioned costs, and will make a final determination within
30 days of the issuance of the ARC report.

Recommendation 14. We recommend that USAID/Haiti make a determination regarding
$17,775 in questioned cost related to $10,350 credit for rental allowance and $7,425 credit for
the education allowance recovered from an employee and recover from the recipient the
amounts determined to be unallowable.

Planned Action:

PADF/Washington has informed USAID/Haiti that they had made a determination on April 12,
2011, that the recovered rental and education allowance should have been credited to the PHR
program, and the appropriate accounting entries were made at that time. The Audit Resolution


                                                                                             20
                                                                                    Appendix II


Committee (ARC) chaired by the Agreement Officer will review the supporting documents
related to the questioned costs, and will make a final determination within 30 days of the
issuance of the ARC report.

Once again, we would like again to express our appreciation for the professional manner in
which the audit was conducted. The initiative of listing in advance the documentation needed for
the audit contributed to a smoother implementation of the field work.

This audit has given us the opportunity to receive clear and to the point recommendations that
would have enabled us, under different circumstances, to improve overall management of
activities conducted by PADF in Haiti.




                                                                                             21
